TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                           The Private Debt Collection
                         Request for Quotation Outlines
                        Adequate Procedures and Controls



                                         September 2005

                              Reference Number: 2005-10-156




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Web Site          | http://www.tigta.gov
                                                     DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   September 19, 2005


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION
                CHIEF, AGENCY-WIDE SHARED SERVICES



 FROM:                           Pamela J. Gardiner
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – The Private Debt Collection Request for
                                 Quotation Outlines Adequate Procedures and Controls
                                 (Audit # 200510021)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) had established adequate procedures and controls, through the provisions stipulated in the
 Request for Quotation (RFQ), to facilitate its management oversight of the Private Debt
 Collection (PDC) program. We did not review the procurement approach or bid evaluation
 process for this program.
 This was a special, limited-scope audit that, together with companion audits being conducted by
 the Office of Audit Small Business and Corporate Programs and Information Systems Programs
 Business Units, provides coverage of a key initiative for which the Treasury Inspector General
 for Tax Administration committed resources as a high priority.

 Synopsis
 On October 22, 2004, the President signed the American Jobs Creation Act of 20041 to permit
 private collection agencies (PCA) to help collect Federal tax debts. The purpose of the PDC
 program is to help reduce the significant and growing number of uncollectible cases and enable
 the IRS to better focus existing resources on more difficult cases. The IRS intends to initially
 contract for debt collection services with three PCAs; it issued a detailed RFQ in support of this
 proposed procurement on April 25, 2005. However, this RFQ was cancelled after the United


 1
     Pub. L. No. 108-357, 118 Stat. 1418 (2004).
                      The Private Debt Collection Request for Quotation Outlines
                                  Adequate Procedures and Controls



States Court of Federal Claims filed an order on July 25, 2005, informing the IRS it intended to
enjoin the solicitation. The order ruled that the IRS’ restriction of the solicitation to vendors
with current Federal Government debt collection task orders was arbitrary and capricious. The
IRS tentatively plans to issue a new RFQ, absent the contested restriction, in September 2005
and begin delivering cases to the selected PCAs in mid-2006.
Our limited-scope review of the April 25, 2005, RFQ and subsequent amendment did not
identify any material omissions that would, in our opinion, adversely affect the IRS’ ability to
effectively manage this effort. The RFQ contains detailed information regarding the award fee,
performance incentive structure, and nonperformance penalty process. In addition, the RFQ
adequately addresses PDC program oversight, management information, and data security
requirements. For example, the RFQ specifies an onsite security review by the IRS of PCA
facilities and stipulates that tax compliance checks and background investigations be performed
for all PCA managers and employees. The RFQ also contains taxpayer rights provisions
mandating PCA adherence to applicable Federal laws, including the Fair Debt Collection
Practices Act,2 the Privacy Act of 1974,3 and the IRS Restructuring and Reform Act of 1998.4
Finally, the IRS developed a comprehensive taxpayer complaint resolution process to investigate
and address potential violations of taxpayers’ rights by PCAs. We will be evaluating the
implementation of these procedures, as well as associated systems development controls, as part
of a series of companion audits being conducted by the Office of Audit Small Business and
Corporate Programs and Information Systems Programs Business Units.
The IRS plans to implement the PDC program in two phases, beginning with a limited
implementation phase. This two-phase approach should allow the IRS to evaluate program
performance and identify/address any areas needing improvement before full-scale
implementation. We also found that the IRS is currently in the process of developing both a
detailed procedures guide and an operational handbook to assist in guiding the implementation
and day-to-day operation of the PDC program.
While our review of the PDC RFQ indicated it established adequate general procedures and
controls to facilitate the management of the PDC effort, we did identify four areas we believe
warrant additional consideration and emphasis as the IRS develops the detailed procedures in
support of the PDC program.
    •    Development of a methodology to ensure PCA employee compensation is not based on
         collection statistics, such as dollars collected per taxpayer contact.



2
  15 U.S.C. §§ 1601 note, 1692-1692o (2000).
3
  5 U.S.C. § 552a (2000).
4
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                              2
                  The Private Debt Collection Request for Quotation Outlines
                              Adequate Procedures and Controls



   •   Development of detailed requirements regarding the review of PCA telephone activity
       reports and specification of expected PCA turnaround times on IRS requests for these
       reports.
   •   Further clarification as to what constitutes a “computer desktop” as defined in the
       security requirements of the RFQ and development of a specific requirement that account
       access for separated PCA employees, or employees no longer needing access to Federal
       tax data, be immediately disabled.
   •   Development of specific time periods PCAs should allow a taxpayer who disputes the
       amount of a liability being collected to forward documentation to support his or her
       position.

Response
We discussed these issues with the IRS during our fieldwork, and management informed us they
plan to address the areas we identified in the PDC procedures guide and operational handbook,
which are currently being developed. Accordingly, we made no further recommendations in this
report; however, we plan to continue assessing the implementation of the PDC program and will
evaluate actions taken as a result of this audit. Management’s complete response to the
discussion draft report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report findings.
Please contact me at (202) 622-6510 if you have questions or Daniel R. Devlin, Assistant
Inspector General for Audit (Headquarters Operations and Exempt Organizations Programs), at
(202) 622-8500.




                                                                                                 3
                          The Private Debt Collection Request for Quotation Outlines
                                      Adequate Procedures and Controls




                                             Table of Contents

Background ............................................................................................................Page 1

Results of Review .................................................................................................Page 3
          The Private Debt Collection Request for Quotation Adequately
          Addresses the Award Fee, Performance Incentive Structure, and
          Nonperformance Penalty Process ...................................................................Page 3
          Additional Clarification Regarding Oversight, Security
          Requirements, and Case Processing Would Further Help Ensure
          Effective Implementation of the Private Debt Collection Program................Page 4

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ..........................Page 6
          Appendix II – Major Contributors to This Report ..........................................Page 7
          Appendix III – Report Distribution List .........................................................Page 8
          Appendix IV – Management’s Response to the Draft Report ........................Page 9
                     The Private Debt Collection Request for Quotation Outlines
                                 Adequate Procedures and Controls




                                          Background

In 1996, the Internal Revenue Service (IRS) conducted a pilot project to use private collection
agencies (PCA) to help collect Federal tax debts. However, reviews of this pilot identified legal
and administrative barriers. In June 1997, Congress directed the IRS to stop using PCAs for
Federal tax debt collection. With the continued rise in tax debt receivables between Fiscal
Years 1996 and 2000, we issued a Management Advisory Report in July 20011 suggesting the
IRS reconsider the use of PCAs to assist in the collection of Federal tax debts.
On October 22, 2004, the President signed the American
Jobs Creation Act of 20042 to permit PCAs to help collect
                                                                     Department of the Treasury
Federal tax debts. The purpose of the IRS Private Debt             officials estimate that, over the
Collection (PDC) program (formerly the Collection Contract          next several years, the PDC
Support program) is to help reduce the significant and                   program will result in
growing number of uncollectible cases and enable the IRS          approximately $1 billion more in
to better focus existing resources on more difficult cases.                    revenue.
The total individual income tax debt designated as
uncollectible has grown from approximately $7 billion
3 years ago to more than $13 billion at present. Department of the Treasury officials estimate
that, over the next several years, the PDC program will result in approximately $1 billion more in
revenue.
The current PDC program was initiated in October 2001, when the IRS began studying the
feasibility of using PCAs within a modernized collection environment, then subsequently
solicited information regarding policies and practices from the private debt collection industry.
The IRS determined the use of PCAs to collect a portion of its delinquent receivables was
feasible, with proper oversight and guidance. Selected PCAs would focus on taxpayers who
were likely to pay their outstanding tax liabilities if they were located and contacted. The IRS
would not refer to PCAs cases with indications that IRS expertise or discretion may be necessary
or that enforcement action would be required to resolve the liability.
The IRS intends to contract for debt collection services with three PCAs from the General
Services Administration Federal Supply Schedule in an initial limited implementation. On
April 25, 2005, the IRS issued a Request for Quotation (RFQ) that includes a description of the
work to be performed. The Statement of Work and the general terms and conditions are located



1
  Management Advisory Report: Additional Options to Collect Tax Debts Need to Be Explored (Reference
Number 2001-40-122, dated July 2001).
2
  Pub. L. No. 108-357, 118 Stat. 1418 (2004).
                                                                                                       Page 1
                  The Private Debt Collection Request for Quotation Outlines
                              Adequate Procedures and Controls



within the RFQ and its attachments. The IRS planned to begin issuing cases to the three selected
PCAs in early 2006.
However, this RFQ was cancelled after the United States Court of Federal Claims filed an order
on July 25, 2005, informing the IRS it intended to enjoin the solicitation. The order ruled that
the IRS’ restriction of the solicitation to vendors with current Federal Government debt
collection task orders was arbitrary and capricious. The IRS tentatively plans to issue a new
RFQ, absent the contested restriction, in September 2005 and begin delivering cases to the
selected PCAs in mid-2006. The second phase will be the full-scale implementation involving
up to 12 PCAs. The IRS plans to issue another RFQ after evaluating the results of the initial
phase.
This review was performed at the Wage and Investment Division in New Carrollton, Maryland,
in the Office of Filing and Payment Compliance, and at the Agency-Wide Shared Services
Division in Oxon Hill, Maryland, in the Office of Procurement Business Operations, during the
period March through July 2005. The audit was conducted in accordance with Government
Auditing Standards. This was a special, limited-scope audit that, together with companion audits
being conducted by the Office of Audit Small Business and Corporate Programs and Information
Systems Programs Business Units, provides coverage of a key initiative for which the Treasury
Inspector General for Tax Administration committed resources as a high priority. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                          Page 2
                      The Private Debt Collection Request for Quotation Outlines
                                  Adequate Procedures and Controls




                                      Results of Review

The Private Debt Collection Request for Quotation Adequately
Addresses the Award Fee, Performance Incentive Structure, and
Nonperformance Penalty Process

On April 25, 2005, the IRS issued an RFQ in connection with the PDC program. The RFQ
contains the general terms and conditions of the PDC program procurement as well as a detailed
description of the work to be performed. On May 26, 2005, the IRS amended the RFQ to
include additional information concerning the qualifications of PCAs submitting proposals for
PDC work, data security requirements, and employee background investigations in response to
inquiries from PCAs.
Our limited-scope review of the April 25, 2005, RFQ and subsequent amendment did not
identify any material omissions that would, in our opinion, adversely affect the IRS’ ability to
effectively manage this effort. The RFQ contains adequate information regarding the award fee,
performance incentive structure, and nonperformance penalty process. In addition, the RFQ
adequately addresses PDC program oversight, management information, and data security
requirements. For example, the RFQ specifies an onsite security review by the IRS of PCA
facilities and stipulates that tax compliance checks and background investigations will be
performed for all PCA managers and employees. The RFQ also contains taxpayer rights
provisions mandating PCA adherence to applicable Federal laws, including the Fair Debt
Collection Practices Act,3 the Privacy Act of 1974,4 and the IRS Restructuring and Reform Act
of 1998.5 Finally, the IRS developed a comprehensive taxpayer complaint resolution process to
investigate and address potential violations of taxpayers’ rights by PCAs. We will be evaluating
the implementation of these procedures, as well as associated systems development controls, as
part of a series of companion audits being conducted by the Office of Audit Small Business and
Corporate Programs and Information Systems Programs Business Units.
The IRS plans to implement the PDC program in two phases, beginning with a limited
implementation phase. This two-phase approach should allow the IRS to evaluate program
performance and identify/address any areas needing improvement before full-scale
implementation. The first phase is scheduled not to exceed 30 months and includes up to


3
  15 U.S.C. §§ 1601 note, 1692-1692o (2000).
4
  5 U.S.C. § 552a (2000).
5
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                              Page 3
                   The Private Debt Collection Request for Quotation Outlines
                               Adequate Procedures and Controls



3 PCAs. The second phase will be the full-scale implementation of the PDC program involving
up to 12 PCAs. The IRS plans to issue another RFQ after evaluating the results of the limited
implementation phase.
Finally, the IRS is currently in the process of developing both a detailed procedures guide and an
operational handbook to assist in guiding the implementation and day-to-day execution of the
PDC program. While our review did not identify any material omissions in the RFQ, we did
identify several areas we believe warrant further clarification as the IRS develops detailed
procedures in support of the PDC program.


Additional Clarification Regarding Oversight, Security Requirements,
and Case Processing Would Further Help Ensure Effective
Implementation of the Private Debt Collection Program

The day-to-day operation of the PDC program will be governed by a detailed policy and
procedures guide and an operational handbook, which the IRS expects to have developed by
September 30, 2005. These documents will outline the general requirements of the program,
prohibited practices, and specific steps PCAs are required to follow when collecting Federal tax
debt, as well as the actions the IRS plans to take to ensure PCAs comply with the terms of the
contract.
While our review of the PDC RFQ indicated it established adequate general procedures and
controls to facilitate the management of the PDC effort, we did identify four areas we believe
warrant consideration and further emphasis as the IRS develops detailed procedures in support of
the PDC program. Specifically:
   •   Although the RFQ prohibits PCA employee compensation based on collection statistics
       and requires PCAs to provide an employee compensation plan, it does not address how
       the IRS will monitor PCAs to ensure ongoing compliance with these requirements.
       Public confidence in the IRS PDC program would be severely undermined if, for
       example, PCA employees were compensated based on tax dollars collected per telephone
       contact or tax dollars collected per hour.
   •   While the RFQ does require PCAs to provide telephone reports to the IRS as needed, it
       does not specify how frequently the IRS will review the reports or the review criteria.
       The RFQ also does not specify an expected turnaround time by PCAs on IRS requests for
       telephone reports. Review of telephone reports is critical to identifying abusive
       collection practices such as calls made to taxpayers very late at night and/or very early in
       the morning.
   •   Although the RFQ prohibits the storage of IRS systems applications or data on a
       computer desktop owned by the PCA, it does not specify whether “computer desktop”
                                                                                            Page 4
                  The Private Debt Collection Request for Quotation Outlines
                              Adequate Procedures and Controls



       includes or extends to hard drive memory space, shared network drives, or email folders.
       The RFQ also does not specifically state that account access for separated PCA
       employees, or employees no longer needing access to Federal tax data, be immediately
       disabled. Explicit definition of critical computer security terms and requirements would
       further help ensure each PCA’s understanding of IRS requirements.
   •   The RFQ states that, when a taxpayer disputes the amount of a liability being collected,
       the PCA will collect supporting documentation from the taxpayer before referral of the
       account to the IRS. However, the RFQ does not specify a time period during which
       PCAs should allow a taxpayer to forward this documentation to support his or her
       position. Requiring PCAs to give taxpayers a predetermined amount of time to forward
       promised documentation, such as cancelled checks, would further help ensure the fair and
       equal treatment of all taxpayers by PCAs.
We discussed these issues with the IRS during our fieldwork, and management informed us they
plan to address the areas we identified in the PDC procedures guide and operational handbook,
which are currently being developed. Accordingly, we have no further recommendations to offer
at this time; however, we plan to continue assessing the implementation of the PDC program and
will evaluate actions taken as a result of this audit. Management’s complete comments regarding
the issues we identified are included as Appendix IV.




                                                                                         Page 5
                     The Private Debt Collection Request for Quotation Outlines
                                 Adequate Procedures and Controls



                                                                                            Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) had established effective procedures and controls, through the provisions stipulated in the
Request for Quotation (RFQ), to facilitate its management oversight of the Private Debt
Collection (PDC) program. We did not review the procurement approach or bid evaluation
process for this program. To accomplish our objective, we:
I.      Determined whether the RFQ effectively addressed the award fee, performance incentive
        structure, and nonperformance penalty process.
        A. Reviewed the process used to establish the Pricing and Commission schedule.
        B. Analyzed the nonperformance penalty process and evaluated the penalties stipulated
           for taxpayer rights, privacy, and disclosure violations.
II.     Ascertained whether the RFQ effectively addressed oversight of the private collection
        agencies (PCA), program success measures, and management information required from
        the PCAs.
        A. Evaluated oversight requirements incorporated into the RFQ relating to case
           processing actions including call monitoring (by the contractor, IRS, and Treasury
           Inspector General for Tax Administration) and the taxpayer complaint investigation
           process.
        B. Reviewed requirements incorporated into the RFQ relating to data security, including
           security specifications and periodic onsite security reviews.
III.    Determined whether the IRS had taken effective actions to address prior audit findings
        related to the PDC program.1




1
 Efforts to Develop a Successful Collection Contract Support Program Could Be Enhanced (Reference
Number 2003-30-075, dated March 2003).

                                                                                                    Page 6
                  The Private Debt Collection Request for Quotation Outlines
                              Adequate Procedures and Controls



                                                                              Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
John R. Wright, Director
Anthony J. Choma, Audit Manager
Gerald Horn, Audit Manager
Philip Smith, Lead Auditor
Stasha Smith, Senior Auditor
Chinita Coates, Auditor
Rashme Sawhney, Auditor
Seth Siegel, Auditor




                                                                                      Page 7
                 The Private Debt Collection Request for Quotation Outlines
                             Adequate Procedures and Controls



                                                                         Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Procurement OS:A:P
Director, Filing and Payment Compliance SE:W:CP:FPC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Director, Procurement OS:A:P
       Acting Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                               Page 8
     The Private Debt Collection Request for Quotation Outlines
                 Adequate Procedures and Controls



                                                     Appendix IV

Management’s Response to the Draft Report




                                                            Page 9
